No:

In the
Supreme Court of the United States

CARLOS SAUZO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE

I, Carlos Sauzo, do swear declare that on this day,

day of September

2021, as required by Supreme Court Rule 29,1 have served the enclosed Motion
for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari, on the
Solicitor General of the United States, Room 5614, Department of Justice, 10th
Street and Constitution Ave., N.W., Washington, D.C. 20530, and every other
person required to be served, by depositing the same in the Prison’s Legal Mail
Box with sufficient First Class Prepaid Postage.

Done this

v\; day of September 2021
Cfvi
Carl os Sauzo
Register Number 99523-038
FCI McRae
P.O. Drawer 55030
McRae Helena, Ga 31055

No:
In the
Supreme Court of the United States
CARLOS SAUZO,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
CERTIFICATE OF FILING

I, Carlos Sauzo, do hereby certify under penalty of perjury pursuant to Title 28
U.S.C. § 1746, that on September ~l/\ , 2021 I placed my copy of my petition for
a Writ of Certiorari to the United States Supreme Court in the Federal FCI McRae
- Legal Mail Box for mailing with sufficient First Class Postage. Accordingly, the
Writ of Certiorari was timely mailed to this Court for filing prior to the filing
deadline.

RECEIVED
OCT - 6 2021

I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.
Done thisT^Jj day of September 2021

Carlos Sauzo
Register Number 99523-038
FCI McRae
P.O. Drawer 55030
McRae Helena, Ga 31055

